U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 15, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Seila Law, LLC v. Consumer Financial Protection Bureau, No. 19-7
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 28, 2019.
The government’s response is now due, after one extension, on August 28, 2019. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 18, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0007
SEILA LAW LLC
CONSUMER FINANCIAL PROTECTION BUREAU

THOMAS H. BIENERT, JR.
BIENERT KATZMAN PC
903 CALLE AMANECER
SUITE 350
SAN CLEMENTE , CA 92673
OLIVER J. DUNFORD
PACIFIC LEGAL FOUNDATION
930 G STREET
SACRAMENTO, CA 95814
916-419-7111
CBAKARICH@PACIFICLEGAL.ORG
KYLE D. HAWKINS
SOLICITOR GENERAL
P.O. BOX 12548 (MC 059)
AUSTIN, TX 78711-2548
512-936-1700
KYLE.HAWKINS@OAG.TEXAS.GOV
KIMBERLY S. HERMANN
SOUTHEASTERN LEGAL FOUNDATION
560 W. CROSSVILLE ROAD
SUITE 104
ROSWELL, GA 30075-7509
770-977-2131
KHERMANN@SOUTHEASTERNLEGAL,ORG

RICHARD P. HUTCHISON
LANDMARK LEGAL FOUNDATION
THE RONALD REGAN LEGAL CENTER
3100 BROADWAY
SUITE 1210
KANSAS CITY, MO 64111
816-931-5559
PETE.HUTCH@LANDMARKLEGAL.ORG
SCOTT A. KELLER
BAKER BOTTS LLP
1299 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-639-7700
SCOTT.KELLER@BAKERBOTTS.COM
NOAH R. MINK
BAKER, BOTTS LLP
THE WARNER
1299 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004-2400
202-639-7825
NOAH.MINK@BAKERBOTTS.COM
ANDREW J. PINCUS
MAYER, BROWN LLP
1999 K STREET, NW
WASHINGTON, DC 20006-1101
202-263-3220
APINCUS@MAYERBROWN.COM
KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP
2001 K STREET, N.W.
WASHINGTON, DC 20006
202-223-7325
KSHANMUGAM@PAULWEISS.COM

ILAN WURMAN
SANDRA DAY O'CONNOR COLLEGE OF LAW
ARIZONA STATE UNIVERSITY
111 E. TAYLOR STREET
PHOENIX, AZ 85004-4467
480-965-2245
ILAN.WURMAN@ASU.EDU

